     Testimony of H. David Kotz
       Inspector General of the
 Securities and Exchange Commission




Before the U.S. House of Representatives
   Committee on Financial Services

       Monday, January 5, 2009
             2:00 p.m.
                                      Introduction

       Good afternoon. Thank you for the opportunity to testify today before this

Committee on the subject of "Assessing the MadoffPonzi Scheme" as the Inspector

General of the Securities and Exchange Commission ("SEC" or "Commission"). I

appreciate the interest of the Chairman, as well as the other members of the Committee,

in the SEC and the Office ofInspector General. In my testimony today, I am

representing the Office of Inspector General, and the views that I express are those of my

Office, and do not necessarily reflect the views of the Commission or any

Commissioners.

       I would like to begin my brief remarks this afternoon by discussing the role of my

Office and the oversight efforts that we have undertaken since I was appointed as the

Inspector General of the SEC approximately one year ago, in late December 2007.

       The mission of the Office of Inspector General is to promote the integrity,

efficiency and effectiveness of the critical programs and operations of the Securities and

Exchange Commission. I firmly believe that this mission is best achieved by having a

vigorous and independent Office of Inspector General to investigate and audit

Commission activities and to keep the Commission and Congress informed of significant

issues and findings.

       The SEC Office of Inspector General includes the positions of Inspector General,

Deputy Inspector General, Counsel to the Inspector General, and has staff in two major

areas: Audits and Investigations. Our audit unit conducts, coordinates and supervises

independent audits and evaluations related to the Commission's internal programs and

operations. The primary purpose of conducting an audit is to review past events with a
view toward ensuring compliance with applicable laws, rules and regulations and

improving future performance. Upon completion of an audit or evaluation, the OIG

issues an independent report that identifies any deficiencies in Commission operations,

programs, activities, or functions and makes recommendations for improvements in

existing controls and procedures.

       The Office's investigations unit responds to allegations of violations of statutes,

rules and regulations, and other misconduct by Commission staff and contractors. We

carefully review and analyze the complaints we receive and, if warranted, conduct a

preliminary inquiry or full investigation into a matter. The misconduct investigated

ranges from fraud and other types of criminal conduct to violations of Commission rules

and policies and the Government-wide conduct standards. The investigations unit

conducts thorough and independent investigations into allegations received in accordance

with National Investigative Quality Standards. Where allegations of criminal conduct

are involved, we notify and work with the Department of Justice and the Federal Bureau

of Investigation as appropriate.

                                      Audit Reports

       I am proud to report that notwithstanding a small staff, the Office ofInspector

General at the SEC has issued numerous audit and investigative reports over the past year

involving issues critical to SEC operations and the investing public.

       In September 2008, our audit unit issued a comprehensive report analyzing the

Commission's oversight of the SEC's Consolidated Supervised Entity (CSE) program,

which included Bear Stearns, Goldman Sachs, Morgan Stanley, Merrill Lynch and

Lehman Brothers. The report provided a detailed examination of the adequacy of the



                                             2
Commission's monitoring of Bear Stearns, including the factors that led to its collapse.

The audit identified deficiencies in the CSE program that warranted improvement and

identified 26 recommendations that, if implemented, would have significantly improved

the Commission's oversight of the CSE firms. The Office ofInspector General audit unit

also issued a second report during the same time period, analyzing the Commission's

Broker-Dealer Risk Assessment program. This program operates pursuant to SEC rules

which require broker-dealers that are part of a holding company structure with at least

$20 million in capital to register with the Commission and provide information on the

broker-dealer, the holding company, and other entities within the holding company

system. The audit found that the SEC was not fulfilling all of its obligations in

connection with the Broker-Dealer Risk Assessment Program and made several

recommendations to improve the program.

       The Office ofInspector General's audit unit has also issued numerous other

reports over the past year relating to issues such as the Self-Regulatory Organization

(SRO) rule filing process, the Commission's Personnel Security/Suitability program, the

Division of Enforcement's oversight of receivers and distribution agents and its case-

management system, the SEC government purchase card program, the Office of Financial

Management's controls over premium travel, the Commission's student loan repayment

program, and numerous Office of Information Technology issues such as information

security, enterprise architecture, and appropriate controls over laptop computers. These

audits are described in our semiannual reports to Congress and the individual audit

reports are available on our website.




                                             3
                                  Investigative Reports

       We also have a vibrant and vigorous investigative unit that is conducting or has

completed over 50 comprehensive investigations of allegations of violations of statutes,

rules and regulations, and other misconduct by Commission staff members and

contractors. Several ofthese investigations involved senior-level Commission

employees and represent matters of great concern to the Commission, Congressional

officials and the general public. Where appropriate, we have reported evidence of

improper conduct and made recommendations for disciplinary actions, including

terminations. Specifically, over the past year, we have issued investigative reports

regarding claims of improper preferential treatment given to prominent persons,

retaliatory termination, the failure by the Division of Enforcement to vigorously pursue

an Enforcement investigation, conflicts of interest involving an Enforcement

investigation and concerning the solicitation of services by an outside contractor, perjury

by supervisory Commission attorneys, misrepresentation of professional credentials,

falsification of personnel forms and the misuse of official positions and government

resources. Where appropriate, we have also referred our investigative findings to the

Department ofJustice for possible criminal prosecution. We are continuing to follow up

with the Department and the Federal Bureau of Investigations on several ongoing

criminal matters.

                                The Madoff Investigation

       It is with this background in mind that I wish to discuss our planned efforts to

investigate matters related to Bernard Madoff and affiliated entities. On the late evening

of December 16,2008, SEC Chairman Christopher Cox contacted me and asked my



                                             4
office to undertake an investigation into allegations made to the SEC regarding Mr.

Madoff, going back to at least 1999, and the reasons that these allegations were found to

be not credible. The Chairman also asked that we investigate the SEC's internal policies

that govern when allegations of fraudulent activity should be brought to the Commission,

whether those policies were followed, and whether improvements to those policies are

necessary. In addition, he requested that the investigation include all staff contact and

relationships with the Madoff family and firm, and any impact such relationships had on

staff decisions regarding the firm.

       Early on December 17,2008, we opened an official investigation into the Madoff

matter. Since then, we have been working at a rapid pace to begin this important work.

On December 18, 2008, we issued a document preservation notice to the entire

Commission informing them that the Office of Inspector General has initiated an

investigation regarding all Commission examinations, investigations or inquiries

involving Bernard L. Madoff Investment Securities, LLC, and any related individuals or

entities. We formally requested that each employee and contractor in the Commission

preserve all electronically-stored information and paper records related to Bernard L.

Madoff Investment Securities, LLC in their original format.

       Over the next few days, we met with senior officials from the Commission's

Division of Enforcement and the Office of Compliance Inspections and Examinations,

known as "OCIE," to ensure their cooperation in our investigation and our ability to gain

access to their files and records. We also met with the Chairman's office to seek

information and documentation relevant to the investigation.




                                             5
       On December 24, 2008, we sent comprehensive document requests to both the

Division of Enforcement and OCIE specifying the documents and records we required to

be produced for the investigation. We requested that all responsive documents be

provided to our Office by January 16,2009. In addition, we made several formal

expedited requests to the SEC's Office ofInformation Technology for searches of the e-

mails of former and current employees and contractors for information relevant to the

investigation, both at headquarters and the New York and Boston Regional Offices, and

have already received and are in the process of reviewing these e-mails.

        We have also already begun efforts to obtain additional resources to assist the

Office in undertaking this investigation. We are securing additional office space and

administrative assistance and hope to add four new investigators to our Office's current

investigative team.

        We have also begun identifying the particular issues that need to be investigated

and are reviewing and updating daily the list of witnesses that we plan to interview. We

intend to begin conducting these interviews immediately and, for example, have already

scheduled a meeting with Harry Markopoulos for later this month for an in-depth

interview on the record. We have also already met and spoken with numerous

individuals informally as part of our initial investigative efforts.

       It is our opinion that the matters that must be analyzed regarding the SEC and

Bernard Madoff may go beyond the specific issues that SEC Chairman Cox has asked us

to investigate. We believe that in addition to conducting a thorough and comprehensive

investigation of the specific complaints that were allegedly brought to the SEC's attention

regarding Mr. Madoff and the reasons for the SEC's apparent failure to act upon these




                                               6
complaints, as well as the staff's contact and relationships with the Madofffamily and

finn and their impact on Commission decisions regarding Mr. Madoff, our oversight

efforts must include an evaluation of broader issues regarding the overall operations of

the Division of Enforcement and OCIE that would bear on the specific questions we are

examining, and provide overarching and comprehensive recommendations to ensure that

the Commission fulfills its mission of protecting investors, facilitating capital fonnation

and maintaining fair, orderly and efficient markets.

       At this early stage, I thought it would be useful to identify the specific issues

related to Bernard Madoffthat, as a preliminary matter, we intend to investigate or

review. Obviously, as the investigative efforts are just beginning, I am not in a position

to provide any conclusions or findings with regard to the allegations that have been raised

and do not wish to make any preliminary judgments before we have had a chance to

analyze all the infonnation. In addition, as underlying evidence relevant to the work of

the Office of Inspector General could also be relevant to the pending criminal or SEC

investigations into possible violations ofthe securities laws, I am being mindful not to

comment on anything that may affect or interfere with those investigations.

       The following are specific issues that we currently intend to investigate:

       (a)     The SEC's response to complaints it received regarding the activities of

Bernard Madoff: including any complaints sent to the Division of Enforcement, OCIE,

the Office of Risk Assessment and/or the Office of Investor Education and Advocacy.

We plan to trace the path of these complaints through the Commission from inception,

reviewing what, if any, investigative or other work was conducted with respect to these

allegations, and analyze whether the complaints were handled in accordance with



                                              7
Commission policies and procedures and whether further work should have been

conducted;

       (b)     Allegations of conflicts of interest regarding relationships between any

SEC officials or staff and members of the Madofffamily, including examining the role a

former SEC official who allegedly had a personal relationship with a Madoff family

member may have played in the examination or other work conducted by the SEC with

respect to Bernard Madoff or related entities, and whether such role or such relationship

in any way affected the manner in which the SEC conducted its regulatory oversight of

Bernard Madoff and any related entities;

       (c)     The conduct of examinations and/or inspections of Bernard Madoff

Investment Securities LLC by the SEC and an analysis of whether there were "red flags"

that were overlooked by SEC examiners and inspectors (which may have been identified

by other entities conducting due diligence), that could have led to a more comprehensive

examination and inspection, including a review of whether the SEC violated its own

policies and procedures by not conducting timely reviews or examinations of Bernard

MadotT's activities and filings; and

       (d)     The extent to which the reputation and status of Bernard Madoff and the

fact that he served on SEC Advisory Committees, participated on securities industry

boards and panels, and had social and professional relationships with SEC officials, may

have affected Commission decisions regarding investigations, examinations and

inspections of his firm.




                                            8
       In addition to these specific issues and depending upon the information that we

learn during the course of our investigation, we plan to consider analyzing the following

broader issues, as appropriate:

       (a)     The complaint handling procedures of the Division of Enforcement,

including a review of how complaints are processed, internal incentives that may affect

the decision whether to take action with respect to a complaint, an analysis of which

complaints are brought to the Commissioners' and Chairman's attention, and whether

tangible and specific complaints are being reviewed and followed-up on appropriately;

        (b)     The OCIE examination and inspection procedures, including an analysis

of what policies and procedures were then and are currently in place, whether these

policies and procedures are being followed and/or whether there are gaps in these policies

and procedures relating to operations involving voluntary private investment pools, such

as hedge funds, because they are subject to limited oversight by the SEC, and whether

any such gaps may lead to fraudulent activities not being detected; and

        (c)     The relationships between different divisions and offices within the

Commission and whether there is sufficient intra-agency collaboration and

communication between the Agency components to ensure comprehensive oversight of

regulated entities.

        Obviously, this is an ambitious investigative agenda, but I firmly believe that the

circumstances surrounding the Bernard Madoff matter may very well dictate a more

expansive analysis of Commission operations. Moreover, it is my view that at the end of

these investigative efforts, there needs to be more than just the potential identification of

individuals who may have engaged in inappropriate behavior or potentially failed to



                                              9
follow-up appropriately on complaints, but rather an attempt to provide the Commission

with concrete and specific recommendations as appropriate to ensure that the SEC has

sufficient systems and resources to enable it to respond appropriately and effectively to

complaints and detect fraud through its examinations and inspections.

       Of course, even with a limited staff and with many of our auditors and

investigators already engaged in ongoing matters, some of which should simply not be

halted even in the face of a significant priority such as this one, I understand that it is

critical that our investigative efforts be conducted expeditiously. I fully understand that it

is crucial for the Commission, the Congress and the investing public that answers be

given to the very serious questions regarding the SEC's earlier efforts relating to Mr.

Madoff in a prompt and swift manner. For this reason, as I mentioned, I am mobilizing

additional resources to ensure that our Office makes every possible effort to conclude our

investigations and reviews as soon as possible. We are considering preparing reports on

a "rolling basis" - assuming that we can identify discrete issues that may be resolved

separately and expeditiously - so that some conclusions may be provided very shortly.

        Finally, I can assure you that our investigation and review will be independent

and as hard-hitting as necessary. While we approach these efforts with an open mind and

at this stage of the investigation we have not reached any conclusions or made any

findings, the matters that have been brought to our attention require careful scrutiny and

review. We will conduct our work in a comprehensive and thorough manner and, if we

find that criticism of the SEC is warranted and supported by the facts, we will not hesitate

to report the facts and conclusions as we find them. I think that if you review the reports

issued by our office over the past year, you will see that where we have found that



                                               10
criticism of the SEC or SEC officials to be warranted, we have reported our findings and

concerns in a frank, yet constructive manner.

                                  Concluding Remarks

       In conclusion, we appreciate the Chairman's and the Committee's interest in the

SEC and our Office. I believe that the Committee's and Congress's involvement with the

SEC is helpful to strengthen the accountability and effectiveness of the Commission. I

believe very strongly that a dynamic and effective Office of Inspector General is critical

to achieving the aims of all federal agencies, including the SEC, and take very seriously

our Office's responsibility to promote efficiency and effectiveness within the

Commission and to detect and report waste, fraud and abuse. We intend to conduct our

investigative efforts promptly and thoroughly. Thank you.




                                            11
